<html>
<title> - NEW HAMPSHIRE'S WORKFORCE CHALLENGE: INNOVATIVE APPROACHES TO ATTRACTING AND RETAINING SKILLED WORKERS</title>
<body><pre>[Senate Hearing 115-91]
[From the U.S. Government Publishing Office]









                                                         S. Hrg. 115-91

                  NEW HAMPSHIRE'S WORKFORCE CHALLENGE:
                  INNOVATIVE APPROACHES TO ATTRACTING
                     AND RETAINING SKILLED WORKERS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 22, 2017

                               __________

    Printed for the Committee on Small Business and Entrepreneurship




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-188 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED FIFTEENTH CONGRESS

                              ----------                              
                    JAMES E. RISCH, Idaho, Chairman
             JEANNE SHAHEEN, New Hampshire, Ranking Member
MARCO RUBIO, Florida                 MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  BENJAMIN L. CARDIN, Maryland
TIM SCOTT, South Carolina            HEIDI HEITKAMP, North Dakota
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma            CORY A. BOOKER, New Jersey
TODD YOUNG, Indiana                  CHRISTOPHER A. COONS, Delaware
MICHAEL B. ENZI, Wyoming             MAZIE K. HIRONO, Hawaii
MIKE ROUNDS, South Dakota            TAMMY DUCKWORTH, Illinois
JOHN KENNEDY, Louisiana
          Skiffington E. Holderness, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     1

                               Witnesses

Zanchuk, Val, President, Graphicast, Jaffrey, NH.................     4
Koheil, Tamer, Center Director, Job Corps, Manchester, NH........     9
Przybyszewski, Phil, Workforce Solutions Project Director, 
  Community College System of New Hampshire, Sector Partnership 
  Initiative, Manchester, NH.....................................    13
Warren, Emily Hall, Director of Administration, Badger Balm, 
  Gilsum, NH.....................................................    21
Whitaker, Lisa, Director of Associate Services, Omni Mt. 
  Washington Resort, Bretton Woods, NH...........................    25

                          Alphabetical Listing

Koheil, Tamer
    Testimony....................................................     9
    Prepared statement...........................................    11
NEMO Equipment, Inc.
    Letter dated September 1, 2017...............................    36
Przybyszewski, Phil
    Testimony....................................................    13
    Prepared statement...........................................    18
Shaheen, Hon. Jeanne
    Opening statement............................................     1
Warren, Emily Hall
    Testimony....................................................    21
    Prepared statement...........................................    23
Whitaker, Lisa
    Testimony....................................................    25
    Prepared statement...........................................    27
Zanchuk, Val
    Testimony....................................................     4
    Prepared statement...........................................     7
 
                  NEW HAMPSHIRE'S WORKFORCE CHALLENGE:
                  INNOVATIVE APPROACHES TO ATTRACTING
                     AND RETAINING SKILLED WORKERS

                              ----------                              


                        TUESDAY, AUGUST 22, 2017

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                        Nashua, NH.
    The Committee met, pursuant to notice, at 11:00 a.m., in 
the Demoulas Room, Rivier University Benoit Education Building, 
29 Clement Street, Hon. Jeanne Shaheen presiding.
    Present: Senator Shaheen.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, RANKING MEMBER, AND A 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. The Small Business and Entrepreneurship 
Committee's field hearing in Nashua on Workforce Development 
will officially come to order.
    I would like to ask Sister Paula Buley, who is the 
President of Rivier University, if she would like to say a few 
words and just thank her very much, and thank Rivier, for 
hosting us this morning.
    Sister Buley. Senator, thank you.
    Good morning, everyone, and welcome. Welcome to Rivier 
University. We are delighted to have you.
    Senator, we're also honored to have you. Thank you for your 
leadership in the areas that mean so much to higher education, 
the STEM workforce development, small businesses, and, of 
course, exporting the best of New Hampshire's economy.
    Rivier joins you all today as a key participant in 
workforce development, for that is what we truly do. Through 
our innovative employment partners, we have students on day 1 
consider the careers that they will enter upon at graduation, 
and our expansive behavioral health programs that are serving 
the State in a particular way as we consider treatment, 
prevention, and recovery in substance abuse.
    So, Senator, for your energy and for your leadership, thank 
you; and to all that join us today, you're most welcome.
    Senator Shaheen. Thank you very much.
    [Applause.]
    And I do want to echo what Sister Paula has said about the 
role that Rivier, like all of our colleges and universities in 
New Hampshire, has played in supporting our business community 
and trying to address the workforce issues that we have.
    Now, before I introduce our official panel, let me just 
recognize some of the people who are here this morning.
    Jim Donchess, who is the Mayor of Nashua, is here. There he 
is, in the front row. Thank you for joining us for the hearing.
    We have the head of the Small Business Administration in 
New Hampshire, the District Director, Greta Johansson. Nice to 
have you here, Greta.
    And Rich Grogan and Warren Daniel. Rich is the head of the 
Small Business Development Centers, and Warren is one of the 
people who works very hard for the SBDCs.
    We also have members of my Small Business Advisory Council 
who work with me on small business issues: Adria Bagshaw in the 
front row; Peter Antoinette; and Mark Lane. So, thank you all 
for being here as well.
    I should also introduce Zenagui Brahim, who is the head of 
our Manufacturing Extension Partnership, which does a great job 
dealing with issues affecting manufacturing businesses.
    We also have a number of representatives from the New 
Hampshire Job Corps who are here. Can I just ask all of you 
to--thank you all very much for being here.
    Let me also recognize members of the Small Business 
Committee who are here from Washington today. We have Sean 
Moore, who is the Director of the Minority staff on the Small 
Business Committee.
    And I hesitate to call up Minority staff because the Small 
Business Committee, despite what you may have heard in other 
areas, works very closely together in a strong, bipartisan way.
    We're pleased to have Tara Schonhoff, who is here from the 
Majority, sent by Senator Risch, who is my colleague from Idaho 
who chairs the Small Business Committee, and I'm the ranking 
member.
    We also have Brian Weiss and Kathryn Eden, who is the Clerk 
of the committee. They are here--raise your hand, Brian and 
Kathryn--so they can make sure that we conduct everything in 
the appropriate, official way.
    Because this is an official hearing of the Small Business 
Committee, we will not be allowing questions from the audience. 
That's the way the rules work in Washington at hearings, so we 
will be hearing statements from our panelists. Then we will 
have a roundtable discussion about the issues, and we will 
allow written testimony from anybody in the audience who would 
like to submit it.
    So with all of that as background, let me again welcome all 
of you this morning and thank you very much for coming to this 
discussion that I hope will be profitable as you think about 
the workforce challenges we face in New Hampshire.
    Everywhere I've been as I've traveled the State in the last 
several years, the number-one concern I hear from our 
businesses is they can't get the workers that they need, the 
skilled workers who have the training and the background and 
the experience and the knowledge, and even in terms of 
businesses who are willing to train their workers, they're 
finding it hard to find people. We're fortunate because we have 
the fourth lowest unemployment rate in the country, but that's 
presented its own particular challenges. So this is an issue 
that I hope we can examine today.
    New Hampshire is a small business State. More than half of 
our private workforce is employed by small businesses, and I'm 
sure we all know the statistic that's one of my favorites that 
Greta shares everywhere she goes, and that is two-thirds of the 
jobs that are created come from small businesses.
    But dynamic industries like advanced manufacturing and 
technology require skills that some of our schools may not yet 
be prepared to teach. So this is one reason that our workforce 
training programs need to be flexible. We've got to keep pace 
with the evolving labor market so that Granite State workers 
can get the high-skilled, high-wage jobs that are being created 
today.
    I've had the opportunity, as I said, to visit a number of 
businesses, and two I want to just call out because I found 
what they were doing very interesting.
    Recently I visited Admix, which is a small manufacturer in 
Londonderry, New Hampshire. They are an ESOP, an employee stock 
ownership program. They provide employees an ownership interest 
in the company, and we're going to hear from a company like 
Admix on the panel today to talk about the benefits of being an 
ESOP.
    But one of the things that I was interested in when I 
talked to the employees at Admix, they said that even more 
important than that share in the company was the flexible 
schedule that they had. They had a schedule that allowed them 
to take certain Fridays off, and that that was what the 
employees said was most important to them.
    I also had the chance recently to visit Seacoast Harley-
Davidson in Northampton. Because they were having trouble 
getting the skills they needed, they partnered with the Great 
Bay Community College to create a technician program, a 24-week 
course in motorcycle maintenance and repair. It was interesting 
to me that the only other two programs that do similar things 
in the country are in Florida and Arizona. So it's 
understandable that we're having trouble getting the trained 
technicians that we need.
    We know that our workforce challenges are complicated and 
they really require us to work together, the public and private 
sector at the State, municipal, and Federal level, to address 
these challenges. We've got to be creative, we've got to be 
flexible, we've got to look at what works and what doesn't 
work, and that's again what I'm hoping we can examine a little 
bit this morning as part of this discussion.
    Now let me again thank all of our witnesses who are here 
this morning. They all have extensive biographies that I am not 
going to read because I'm hoping that we can spend more time in 
discussion, but just know that they are all very skilled with 
lots of experience and good, creative ideas on this topic.
    I'm going to start with Val Zanchuk, who is at the far end 
there. He is the President of Graphicast, Inc., which is a 
Jaffrey-based manufacturer of precision machined zinc alloy 
castings. They've been in business since 1978. They are an ESOP 
company, and employees own about a third of the company.
    Now, I'm not, as I said, going to go into all of Val's vast 
experience in economic development in New Hampshire, but now he 
serves on the State Workforce Innovation Board, so he has 
particular insights into some of the State policies that are 
trying to address workforce.
    Next to Val is Tamer Koheil, who is the Center Director at 
our New Hampshire Job Corps Center. For all of you who know me, 
you know that I have a special place in my heart for the Job 
Corps Center because I started working on this over 20 years 
ago, when I was a governor, and it's taken us a long time, but 
now it's here and it's doing a great job.
    Tamer, we're delighted that you're here this morning.
    Before he came to New Hampshire, he was the Center Director 
at the Shriver Job Corps in Fort Devens, Mass., where they 
consistently ranked among the top performing Job Corps centers 
in the country. So we know you're going to bring that expertise 
to New Hampshire.
    Next to Tamer is Phil Przybyszewski, who is currently the 
Workforce Solutions Project Director at the Community College 
System of New Hampshire. Before that he was the Project 
Coordinator who managed and oversaw the implementation of all 
aspects of the TAACCCT Grant that we received in New Hampshire. 
It was a $20 million-plus grant to work with companies and our 
community college system to try and provide the workers that we 
need for the future.
    Thank you for being here, Phil.
    On my right is Emily Hall Warren, who is the Director of 
Administration at the WS Badger Company, which is a family 
owned and family friendly business built around healthy living 
in the workplace. They are a B Corporation, which adds to 
transparency in the company's social and environmental business 
practices.
    Before Emily went to Badger, she had extensive experience 
in human resources in training and advancement for Claremont 
Savings Bank and the Timken Company.
    So, thank you for being here.
    And finally, Lisa Whitaker probably came the farthest of 
anybody today. She is the Director of Associate Services at the 
Omni Mt. Washington Resort and Ski Area, and before that she 
was the Vice President of Human Resources at Granite Bank in 
Colebrook, New Hampshire.
    We are delighted to have all of you here. I look forward to 
hearing your thoughts and ideas about what we should be doing 
in New Hampshire.
    I'm going to ask each of you to speak for--I know we told 
you 5 minutes, but if you can stay a little under that, that 
will give us more opportunity to talk and be more interesting, 
I'm sure, as we engage around the ideas that you present.
    So let me begin with you, Val.

  STATEMENT OF VAL ZANCHUK, PRESIDENT, GRAPHICAST, JAFFREY, NH

    Mr. Zanchuk. Thank you, Senator. I'll speak as quickly as 
possible.
    With New Hampshire's low unemployment rate and a growing 
economy, attracting and retaining skilled employees is probably 
the first priority of every business in the State.
    However, our population demographics are not helping us 
meet this challenge. School enrollments are steadily declining. 
A large portion of our workforce will be retiring in the next 
five to ten years, and skill requirements are growing, with 
more emphasis on post-secondary education.
    Across the State, business, government, and education are 
working toward a common goal, which is that 65 percent of our 
workforce will possess a post-secondary education by the year 
2025 to meet the demands of the economy. This goal, which we 
call 65 by 25, is not arbitrary. A study by Georgetown 
University identified evolving workforce needs for every State 
based on each State's economy and projected economic growth.
    For New Hampshire, we are currently at about 51 percent of 
our workforce having these skills. Through natural organic 
growth, we will reach about 58 percent by 2025. To get to the 
65 percent level, however, which is essential for continued 
economic health, we will need to add about 50,000 more people 
in the State to attain this level of training. And, of course, 
the question is how are we going to do this?
    A starting point for individual companies, I think, is 
greater engagement, both with their employees and with their 
communities. Employee engagement, getting our employees to be 
part of the solution to business problems and challenges, is a 
break from the traditional command and control management 
structure. This trend is evident by the adoption of lean 
manufacturing and other techniques that bring everyone into the 
process of running the business. Ongoing training and tuition 
reimbursement plans also help increase skill levels of 
incumbent employees. These efforts help employees feel more 
valued and respected, and they are more likely, then, to stay 
with their employer.
    Increasingly, businesses need to get out of their comfort 
zones and reach out to their local school systems to help the 
schools understand the career opportunities and needs of 
businesses. These needs are not only academic skills but also 
include work habits and workplace expectations. Conversely, 
businesses need to understand the challenges of the educational 
system. This helps to establish common ground from which to 
work together to create graduates who are more aware and better 
prepared for careers. Internships, extended learning 
opportunities where students learn skills at a business, and 
mentoring are among the ways that businesses and schools can 
collaborate.
    The Business and Industry Association of New Hampshire and 
the New Hampshire Charitable Foundation are collaborating in 
this area. The BIA has established a workforce development 
effort focused on bringing businesses and schools together to 
accelerate the process of these career awareness 
collaborations. The BIA has collected information from its 
members who are already working with schools to use as a 
template for other businesses to model their own engagement.
    The BIA-Charitable Foundation partnership is also 
undertaking a 65 by 25 oversight role, working with all 
entities in the State focused on workforce development and 
post-secondary education. By developing metrics to measure our 
collective progress towards that goal, and by increasing 
awareness of each entity's efforts, we hope to ensure we are 
working most effectively to accomplish our task.
    However, we will not reach 65 by 25 just through high 
school graduation rates. The decreasing school-age population 
will not provide enough people to meet the demand even if every 
student knew exactly what career path they planned to travel. 
We will help ourselves if we can increase in-State enrollment 
in our colleges and universities, as New Hampshire is one of 
the highest exporters of students to out-of-State higher 
education institutions. We will also help if we can retain more 
graduates within the State. Here business engagement, in the 
form of internships and sponsored research, is critical to this 
effort. All of this is part of the 65 by 25 challenge.
    A second area of effort is retraining the underemployed for 
higher skilled jobs. New Hampshire has a large segment of 
people who have had some post-secondary education but no 
degrees. These capable people often do not know of the 
opportunities available in business, or of the educational and 
training resources already in place in the State to help them 
make a transition. The Strategic Partnership Initiatives are 
part of the solution to this challenge and will be discussed in 
more detail by Phil.
    Attracting skilled workers from out of State is the third 
way of meeting the 65 by 25 goal. As every State is also 
involved in a similar effort, New Hampshire has a lot of 
competition for these skilled workers. The particular advantage 
New Hampshire had in the past is no longer effective, as other 
states have improved their attractiveness to the skilled 
workforce. Immigration from other parts of the world can help 
overcome these issues, as New Hampshire still provides an 
attractive place to work and live for many educated people 
coming from other countries.
    I have highlighted a few of the many efforts underway in 
New Hampshire that are addressing the challenge of growing and 
retaining our skilled workforce. The common goal of 65 by 25 
has been a way to focus these efforts.
    Thank you.
    [The prepared statement of Mr. Zanchuk follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Shaheen. Thanks very much, Val.
    Tamer.

    STATEMENT OF TAMER KOHEIL, CENTER DIRECTOR, JOB CORPS, 
                         MANCHESTER, NH

    Mr. Koheil. Good morning and thank you, Senator.
    Again, my name is Tamer Koheil. I am the Director of the 
New Hampshire Job Corps located in Manchester, New Hampshire, 
the center which opened in 2015, designed to serve 300 students 
at a time.
    The center serves students from New England, primarily from 
New Hampshire. Participants are economically disadvantaged 
youth between the ages of 16 to 24.
    Job Corps is primarily a residential program. Students go 
through an admissions process prior to enrollment. Once in Job 
Corps, they live at the center and receive academic, 
vocational, and social skills training.
    The center is open 24 hours a day, 7 days a week. We have 
dormitories, recreational facilities, and wellness support for 
our students on our 30-acre campus.
    The New Hampshire center is a career and technical training 
and education center that offers comprehensive hands-on 
training in nine of New Hampshire's most in-demand fields. 
Trade programs include Advanced Manufacturing, Electrical, 
Facilities Maintenance, Security Services, Culinary Arts, 
Hospitality Services, Medical Administrative Assistant, 
Clinical Medical Assistant, and Licensed Nursing Assistant. We 
also offer advanced college training programs in our CAD 
program, Computer Aided Design, Robotics, Registered Nursing, 
Hotel and Restaurant Management, Pharmacy Technician, and 
Cybersecurity. We have partnered with Manchester Community 
College, Nashua Community College, St. Joseph School of 
Nursing, and CVS to offer these programs.
    All of our instructors have years of experience working in 
the field that they teach. Our students receive industry 
recognized credentials and certificates that give them a leg up 
in the job market and assure employers that our students have 
the skills they are looking for.
    We also accept students with or without high school 
diplomas.
    Based on my more than 10 years of Job Corps experience, I 
have identified three proven strategies that actually help us 
prepare our students for the New Hampshire workforce.
    The first one is employability and soft skills development. 
So in addition to academic and vocational skills training, we 
dedicate significant time and effort helping our students 
develop their soft skills. Punctuality, being respectful, 
dressing appropriately, these are all vital components to 
successful employment. As a residential program, we conduct a 
number of employability skills development programs after the 
normal training day. Based on feedback from our business 
partners in the New Hampshire community, we know how important 
cultivating these life skills can be.
    The second factor is employer involvement. Active employer 
involvement is essential. We work closely with a number of New 
Hampshire employers to determine their training and workforce 
needs. We conduct Workforce Council meetings to have employers 
review our curriculum, tour our training sites, meet with 
students to discuss career goals, and provide input into the 
certifications and skills needed to be prepared for above 
entry-level jobs. Many examples that we have, we have employers 
that currently work with us at the Omni Resorts Mt. Washington, 
Portsmouth Internal Medicine, Textiles Coated International, 
and many others.
    The third factor is actually work-based learning. A key 
component of our training is off-center work-based learning, 
commonly known as internships or work experience. Typically, 
students spend four to six weeks at a job site to receive on-
the-job training. It is our goal to work closely with the 
employer in order to transform these experiences into full-time 
employment upon completion of Job Corps. However, we recognize 
that not all students will be hired after their internship. But 
it is a tremendous work experience and allows us to get 
employer feedback on how to strengthen the job readiness skills 
of our students.
    One of the things that we also work on with our employers 
is having a pre-apprenticeship and apprenticeship program. We 
just signed an MOU with CVS for an apprenticeship program, and 
more to come. This is our direction to support the needs of the 
workforce these days.
    Also, I would like to mention that as an entity we are all 
about supporting small business. We have spent in the past year 
or so more than $1 million on various goods to support our 
mission. All were purchased from local small business vendors.
    Our program is for people that want to change their lives, 
who want to achieve their career and life goals. We give them 
marketable and highly sought skills so they can do that.
    In closing, I would like to extend my thanks to Senator 
Shaheen and the entire New Hampshire congressional delegation 
for all their efforts in supporting the mission of the New 
Hampshire Job Corps. Thank you.
    [The prepared statement of Mr. Koheil follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Shaheen. Thank you, Tamer.
    Phil.
    We're sharing mics this morning.

 STATEMENT OF PHIL PRZYBYSZEWSKI, WORKFORCE SOLUTIONS PROJECT 
  DIRECTOR, COMMUNITY COLLEGE SYSTEM OF NEW HAMPSHIRE, SECTOR 
             PARTNERSHIP INITIATIVE, MANCHESTER, NH

    Mr. Przybyszewski. Hello there. My name is Phil 
Przybyszewski, and as the Senator did a great job pronouncing 
my name, I really appreciate that, because most people don't.
    Senator Shaheen. I practiced.
    Mr. Przybyszewski. It says here I work for the Community 
College System of New Hampshire, which is true, but I'm on loan 
to the Office of Workforce Opportunity to start a new program 
called Sector Partnership Initiative, and I'm going to talk 
about that today, and I appreciate the opportunity to do that, 
Senator.
    As you know, the adoption of a Sector Partnership 
Initiative or sector strategy in New Hampshire is a requirement 
of the Workforce Innovation Opportunity Act of 2014. It's not 
like an option. We'll be doing this because we need to do it to 
continue getting the appropriate funds we need to support our 
workforce.
    The Office of Workforce Opportunity, which I work for 
within the Department of Business and Economic Affairs, on 
behalf of the State Workforce Innovation Board, was charged 
with implementing this new way of approaching workforce 
development, and the initiative was funded by a Federal grant--
thank you so much--a National Emergency Grant, which included 
money for staff, and this is the staff right here, as well as 
training dollars that we use to provide training, support, as 
well as on-the-job training and reimbursement to companies who 
bring people into their facilities to get trained.
    Really of significance here is the fact that SPI is an 
industry-driven initiative. Even though I work for the 
community college, the intent of this program is to enable 
industry sectors to be able to run with this once we've got it 
set up and running, and we are well on our way to making that 
happen.
    The process began in 2015, so we've been at this for a 
little bit over two years. But since that time, a lot of the 
focus and effort has been devoted to developing sector 
partnerships in several key industries. A steering committee 
was established comprised of stakeholders from the industry, 
State agencies, community-based organizations, education and 
training providers, the DOL Office of Apprenticeship, and the 
Governor's Office participated on our steering committee.
    A data-driven approach was taken to leverage the resources 
of the New Hampshire Economic and Market Information Bureau, 
which are fabulous resources the State has, to select four 
sectors to work on. The sectors that we selected were 
manufacturing or advanced manufacturing, depending on how you 
want to look at it; health care; technology, which we used to 
call IT but it's really more than just IT--technology covers 
all the sectors, quite frankly; and hospitality. Each of these 
sectors is a vibrant contributor to our economy here in New 
Hampshire.
    And keeping to the industry-driven concept, each sector has 
champions and intermediaries to drive the process in their 
sectors. As a matter of fact, we have some of those people 
right here in this room today. So we have a champion for our 
manufacturing sector here whose name is Val, and I think way in 
the back we have a champion from our health care sector, one of 
our champions, Sarah Courier.
    Senator Shaheen. Raise your hand.
    Mr. Przybyszewski. Sarah is way in the back.
    Senator Shaheen. Thank you.
    Mr. Przybyszewski. And every one of our sectors has 
champions and intermediaries that help drive the process. Since 
it's going to be industry driven, we need those people. We need 
those people very much.
    There's a process called asset mapping. We went through and 
looked at each one of these industries and developed a lot of 
data points and a lot of information, and what I have here are 
the reports for the four sectors that we tackled, and we are 
about to embark on a fifth sector called infrastructure, 
loosely called infrastructure. Because it's such a big thing, 
we don't know exactly what it's going to end up, but I'm going 
to tell you about that in a second.
    Each of the sectors has very distinct characteristics, as 
well as challenges, as you might guess, and a lot of them were 
even discussed earlier. In the case of manufacturing, we have 
68,000 employees in the State of New Hampshire spread out over 
1,950 industries. That's an average of 35 employees each, small 
business for sure. Relatively flat growth projected here, but a 
lot of churn, a lot of movement within the population of the 
workforce primarily caused by retirements, which again I think 
was mentioned earlier. Thirty-plus percent of our people 
working in this sector are over age 55. If you talk to any 
companies, like I'm sure the Senator has, and they say they're 
going to be impacted by retirements, you'll hear in the next 
five to seven years I'm going to lose about 20 percent of my 
workforce. It's a very significant number.
    The good news, strong hourly wages here, and the top needs 
we find are in CNC machinists, machinist mechanics, and first-
line supervision.
    In the case of health care, 88,000 workers spread over 
2,800 establishments. That's an average of 31 people per 
establishment. Again, small business for sure. Huge growth 
rates here, growth rates 10 to 15 percent over the next five 
years. That's a lot. Good wages at the top, not so good wages 
at the bottom rung of the positions there. Top needs are 
nurses, licensed nursing assistants, and medical assistants.
    Technology, which we used to call IT, every sector has 
technology, believe it or not. If you've got a computer, you're 
using technology. There are 61,000 employees, roughly; growth 
rates approaching 12 percent over the next five years. Hourly 
wages are good here, $37 at the top end, but even the help desk 
people make a pretty good wage in this particular sector. We 
see the top needs here as being developers, systems analysts, 
and user support specialists.
    Hospitality, 68,000 employees spread over 4,500 
establishments, an average of 15 people per establishment. 
Seventy percent of the jobs are concentrated on food service 
and drinking establishments. It's a really young workforce 
here, 36 percent below the age of 25, so they have different 
needs there because of that. High turnover caused by lower 
wages, and it's seasonal, particularly up north. A lot of 
people may work three or four months a year and then they have 
to get another job for the summer or the winter. I think some 
of the top needs here are better defined career pathways. They 
exist, but they're not recognized by potential employees. And 
training programs.
    I mentioned infrastructure earlier, and we're really in the 
exploratory stage here, but this could be anything from an 
airport to a wastewater treatment plant, A to Z practically. So 
we're doing our asset mapping, like we did over here, and by 
the end of next week we'll have our first draft of the report, 
and we'll probably select two or three sub-sectors out of this 
large sector. Right now if we can get construction, heavy-duty 
construction, bridge work, broadband, which is very important 
for us, and energy.
    According to the U.S. Small Business Administration, a 
really high number of businesses are small, so the numbers are 
just--we validated that for sure. Helping small businesses is 
really a key for us to be successful in Sector Partnership 
Initiative, or SPI.
    One of the things you need to understand, as SPI we kind of 
act as an intermediary. I like to call it the connector of the 
dots, right? So there are lots of companies out there, and 
there are lots of resources, but sometimes they don't know they 
exist. So we're trying to connect those people to make sure 
they take advantage of what's out there.
    One of the ways we do this is we have a document that's 
actually embedded in these reports called a summary of major 
assets for this particular sector, and what's in here, within 
these five or six pages, is identification of all the people 
who are convening something in this sector, something that 
relates to, in this case, manufacturing. It lists them all out. 
This is the first place where this has all been done, although 
I know that the 65 by 25 group is doing something very similar 
to this. We also identify where can you get training, from high 
schools to CT centers to two-year colleges to four-year 
universities to third-party independent providers of training.
    We also identify in here the target audiences. So one of 
the things I like to call the gene pool, we have a fixed gene 
pool right now, and we've got to make that pool bigger. 
Otherwise, we're just going to keep grabbing out of the pool. 
All we're doing is just recycling people. So we're looking at 
targeted populations like the unemployed, underemployed, 
veterans, what can we do for veterans here, and women, of 
course. Technology allows women to do jobs that 10 or 20 years 
ago they couldn't because the technology wasn't here yet. It's 
here today, so they can have a better opportunity for career 
growth.
    And also refugees. We're doing a lot of work here 
identifying people in the country that maybe have a language 
issue or maybe they have a degree wherever they came from, but 
they're driving a cab or working at a low-end job. How do we 
unleash their potential there?
    And also people with disabilities are very important. We 
think this asset map is valuable, too, to unlock some of the 
secrets to that.
    We try to work with companies because we have a lot of 
small companies and they don't all have the wherewithal to have 
internal training programs or an HR department that has a 
training contingent. Most small companies--Val's company is 18 
employees or something thereabouts, and he's the bottle washer, 
dishwasher, et cetera. He's the guy, right? It's his company. 
So we try to bring groups together to work collaboratively and 
then find funding sources to help them. We do a lot of work 
with NAP because they do a lot of collaborative work just like 
that and it fits nicely with what we're trying to do.
    And--I was going to call you Governor. Sorry about that. 
And, Senator, when you were governor, the New Hampshire Job 
Training Fund was formed under your watch, and believe me, we 
are using that every day of the week. We've done a lot of 
training programs in lean manufacturing, energy management, 
first-line supervision, auto repair, ISO 9000 compliance, and 
CNC boot camps, all through the use of the Job Training Fund.
    A key about this is it's not a free-for-all, right? The 
company has to put some skin in the game. They've got to match. 
It's a matching grant, so there has to be some investment on 
that side of the equation.
    In collaboration with the Community College System of New 
Hampshire and the Department of Labor Apprenticeship Office, we 
strongly support the adoption of registered apprenticeships 
with our sector partners. We see this as a proven way to 
attract and retain workers while companies commit to investing 
in their workforce. Today we have seen most activity in the 
health care sector, with training of LNAs and MAs, and the 
manufacturing sector with machining and maintenance 
technicians.
    We also work closely with our education providers. That's 
all part of the food chain for us. And we're doing a couple of 
projects right now with local high schools, the Nashua High 
School right up the street from here. We're helping to 
rejuvenate their machine tool program. It was kind of in 
disrepair. We rebuilt the advisory board using our leverage to 
connections, and now we're locating funding for teacher 
training for them so that we can get that program back up on 
its feet.
    The Creteau Technical Center in Rochester, where we are 
helping to develop an in-school training program in composites. 
If you know where the Creteau School is, it's 100 yards down 
the road from Great Bay Community College's composites 
laboratory. So we're trying to work with them to develop a way 
to get high school students, using Running Start and other 
programs like that, college credits so that they can get a job 
right down the street shortly thereafter.
    So we're leveraging all those resources, because there's a 
$5 million laboratory there. It was paid for by a TAC grant. 
We're leveraging that in this particular way.
    We already mentioned the 65 by 25. That's really the true 
measure of success for a lot of our work here, developing 
trainings that will yield some kind of post-secondary 
certificate or credential. That's critical.
    In closing, Senator, we really appreciate your continued 
support of New Hampshire's economy and well-being, and we look 
forward to doing that over the years.
    [The prepared statement of Mr. Przybyszewski follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Shaheen. Thanks very much. Can you just tell us, if 
somebody wanted to get a hold of the reports that you showed, 
are those available online?
    Mr. Przybyszewski. They are. They are available online at 
NewHampshireWorks.org. All of our research is online. So 
instead of doing hard copies, if you want to know something 
about sector, go to NewHampshireWorks.org. If you want some 
more direct information, just see me after, give me your card, 
and I'll be happy to spend some time with you.
    Senator Shaheen. That's great.
    Mr. Przybyszewski. Thank you.
    Senator Shaheen. Emily.

  STATEMENT OF EMILY HALL WARREN, DIRECTOR OF ADMINISTRATION, 
                    BADGER BALM, GILSUM, NH

    Ms. Warren. Thank you for this opportunity.
    Senator Shaheen. Can I ask you to speak into the mic?
    If you can't hear in the back, if you'd just raise your 
hand, we'll try and get the mic closer.
    Ms. Warren. Can you hear? Get in closer, okay.
    Thank you for this opportunity to talk about some of our 
business practices. I work for the Badger Balm company. We're 
located in Gilsum, New Hampshire. We are manufacturers of 
organic body care products. We have about 100 employees on our 
staff. Something that we do a little bit differently is that 
we're a B corp., which means that we are incorporated as a 
benefit corp., and we also undergo a rigorous certification 
process every two years to ensure that we are living up to our 
commitment to honor a triple bottom line. That's caring for the 
people of our company and our community, caring for the planet, 
and also paying attention to our profit, which is important to 
do everything else.
    Because of our focus on community and people, we have an 
embarrassment of riches. I'm honored to say that we're an 
Employer of Choice in the region. We do almost no recruiting. 
Our employees come to us and they want to stay with us. I 
really think that this is because of our approach to business 
in that we want to be a force for good in the world, and we 
want to be a force for good for our employees.
    Because of this, we put a lot of time and energy and 
resources into treating people, our employees, as a whole 
person, trying to support their families, trying to support 
their personal lives, their work/life balance. Examples of that 
include a commitment to a living wage. We have a Babies at Work 
program where new parents can bring their babies in until 
they're six months old or crawling, whichever comes first. We 
have a near-site child care center once the babies have aged 
out of the Babies at Work program. We have paid primary care 
leave for new moms and dads, and paid secondary caregiver leave 
for new moms and dads. Just in the last couple of weeks we've 
made a commitment to having paid FMLA leave for everyone else 
to care for their aging family or for themselves or for another 
family member.
    So when I talk about all the benefits we have at Badger, I 
think that people sometimes think that we're a bunch of crazy 
hippies up in Gilsum and that normal companies can't do this. 
But there's a lot of things that we do that I strongly believe 
other companies can adopt and that they can do with very little 
cost and that will lead towards happier, healthier businesses 
and happier, healthier employees.
    The number-one thing you can do to support families in the 
workplace is to offer a flexible workplace schedule for moms 
and dads so that they can leave if their kids are sick, or they 
can go to a baseball game. There's no cost to that. It might be 
a little bit harder to do scheduling-wise, but it makes a huge 
difference in the lives of people.
    Every company can make a choice to run their business 
transparently, to talk to their employees about what they're 
doing in their business. Every company can encourage employees 
to bring their whole selves to work and create a supportive 
community for them.
    Another example of a program that we have that is very easy 
to implement and has a very structured cost so that you can 
budget for it is we have a wellness fund. So we say to 
employees we know that you have costs to be healthy that are 
not covered by our health insurance, and we'd be happy to pay a 
certain amount of money per year towards running shoes or for a 
fitness center, and we just budget that in a line item for 
every employee, a limited cost, very predictable and very easy 
to do, and it makes a huge difference. People feel like they're 
being cared for.
    So, I guess what I want to say is that Badger is always 
looking for new ways to care for its employees and the 
community, and when it comes to attracting and retaining 
employees I think the most important thing that businesses can 
do is make sure that everyone has a voice and a role and feels 
like they're part of the organizational process. Val talked 
about employee engagement, and that's exactly what I'm talking 
about.
    Engagement is key to building and retaining a motivated 
workforce, so Badger is happy to serve as a resource. We are 
happy to talk about this to anyone and everyone who will 
listen. So please come and see me afterwards if you'd like to.
    [The prepared statement of Ms. Warren follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Shaheen. Thanks very much, Emily.
    Lisa.
    And again, if you can't hear, raise your hand.

  STATEMENT OF LISA WHITAKER, DIRECTOR OF ASSOCIATE SERVICES, 
         OMNI MT. WASHINGTON RESORT, BRETTON WOODS, NH

    Ms. Whitaker. Good morning. Can everybody hear me? Thank 
you.
    This past February, the Omni Mt. Washington Resort began a 
partnership with the Job Corps Center in Manchester, New 
Hampshire. Students and staff of the New Hampshire Job Corps 
were invited to the Omni Mt. Washington for a tour where they 
were able to prepare their own lunch and enjoy smoothies 
alongside our team of culinary professionals. After their 
enthusiastic visit, which we now plan to make an annual event, 
the New Hampshire Job Corps invited a representative from the 
Omni Mt. Washington to attend their job fair and tour their 
facility. These tours served reciprocal benefits, introducing 
the students to the many hospitality and culinary opportunities 
available to them at the Mt. Washington, while showing the Mt. 
Washington the Job Corps' quality program and potential talent 
available to supplement our workforce.
    As a result, the Bretton Woods Culinary Academy came to 
fruition, which consists of a three-year apprenticeship in 
which up to 10 participants will be accepted each year. In 
partnership with White Mountains Community College, 
participants will also earn a culinary arts associate's degree 
after successfully completing the program.
    The students participating in this program will be residing 
in Bretton Woods while working for the resort and attending 
college. In addition, some of their classes will be hands-on 
while working for the hotel.
    We currently have three Job Corps students in our culinary 
program and another working in our food and beverage 
department. We have found these students to have good work 
ethics, great attitudes, and a desire to learn. They are 
engaged, and they are excelling.
    So we're located in southern Coos County. The Omni Mt. 
Washington draws employees from southern Coos County, as well 
as northern Grafton and Carrol Counties. It's a very small 
population within commuting distance, so recruitment and 
staffing of up to 1,200 employees during peak periods of 
business is very difficult for us. Partnerships, like our new 
relationship with the New Hampshire Job Corps, is vital.
    New Hampshire is also experiencing an aging population, as 
has been mentioned earlier, due in part to our younger 
generation leaving for areas with more opportunities. New 
Hampshire Job Corps provides opportunities to New Hampshire 
youth who may not have otherwise had them, and helps them to 
turn their lives around, providing them with the potential to 
have careers while retaining them for the New Hampshire 
workforce.
    The Omni Mt. Washington is a proactive employer. We are 
always improving our training programs to train and retain 
employees and help them to learn to become professionals in the 
hospitality industry, an industry which is crucial to the 
northern New Hampshire economy. We're also working with 
educational facilities at the college and high school levels to 
hire youth and provide them with career opportunities in New 
Hampshire.
    So our new relationship with the New Hampshire Job Corps 
has been a successful supplement to our workforce, and we look 
forward to a continued and growing partnership with them.
    Thank you.
    [The prepared statement of Ms. Whitaker follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

     Senator Shaheen. Thank you, Lisa.
    And thank you all very much for some very interesting and 
challenging thoughts about what's happening in the workforce.
    I want to start with an issue that most of you mentioned, 
and that is that we're losing so many of our young people. 
They're leaving the State. They're going out of State for 
college and other things, and then they're not coming back.
    Several of you addressed ways that you're trying to attract 
people here, but are there policies that we should be thinking 
about at the State level that would help make New Hampshire 
more attractive to younger workers? Are there things that we 
should be putting in place to try and keep people here?
    I will direct that or open it up to all of you.
    Val.
    Mr. Zanchuk. I think there are several issues there. 
Certainly a financial issue is one of them. In-State tuition is 
not necessarily all that attractive, so many of our students 
get better deals from other states. They should be getting 
their best deal from New Hampshire. That's a State issue 
probably more than a Federal issue, but it certainly is one of 
the things that makes it difficult for many students to stay 
in-State.
    The other thing I think is the lack of awareness of career 
and career opportunities. So I think, again, at the State level 
we need to be reaching out to kids all the way down to maybe 
middle school or even below to begin to introduce them to 
careers. If the students know that there are opportunities in 
the State, they are more likely to stay. If there's an 
internship or an extended learning opportunity or some sort of 
mentorship available, then those students recognize that there 
is something here, and that can go through starting in middle 
school up through their high school years and then continuing 
into college. So they end up with a relationship with a 
business or businesses or industry in New Hampshire and know 
that there's an opportunity here.
    A lot of these things are being addressed and approached 
right now on the State level. I don't know if there's a Federal 
opportunity there, but certainly on the State level we are 
trying to reach down lower and lower into the grades to develop 
career pathway information so that students know early on if 
I'm interested in this, then this is the path I can take, these 
are the things I need to learn to do. And if we can stimulate 
some interest in a career early, then the student has less 
uncertainty as they work through school and they begin to 
understand what they need to do to get to where they want to 
go.
    Senator Shaheen. You know, I've also visited some advanced 
manufacturers who have talked about not just the need to reach 
out to students but to their parents, that many parents still 
think about manufacturing in the way that it was when I grew up 
and my father was in the shoe business. The shoe factory looked 
very different in those days than advanced manufacturing looks 
today.
    So what we need to do is to help parents recognize the 
career potential in those businesses, that everybody may not 
need a four-year degree in order to take some of those jobs.
    Mr. Przybyszewski. I think the other thing that's important 
is when parents think about the dirty, dark, and dangerous days 
of the grandfather who lost a finger, et cetera, it's not like 
that. You can eat off the floor in most of these companies.
    The other people who have to be educated is the guidance 
counselors in our school systems to understand that there are 
opportunities, fabulous opportunities out there that don't mean 
you have to go away to college somewhere, maybe community 
college, and maybe a certificate program.
    We've got jobs begging for people that don't require four-
year degrees and that are well-paying jobs. So they're out 
there. Believe me, they are.
    Now I sound like Donald Trump, ``Believe me, they are.''
    [Laughter.]
    Senator Shaheen. Emily, you wanted to add something.
    Ms. Warren. I do. You're talking about students choosing to 
stay in New Hampshire for college, but then once they graduate 
from college it's a different demographic. You're looking at 
young families. When I think about young families and their 
needs, things that I think about that can be impacted on a 
State and Federal level include quality child care 
availability----
    Senator Shaheen. Absolutely.
    Ms. Warren [continuing]. Quality school systems for young 
children, and then another issue that is on the Federal level 
is paid FMLA. So parents who are caring for young children, 
parents who are caring for their aging parents, and making it 
affordable and flexible and enjoyable to stay in the workforce.
    Senator Shaheen. For sure. Unfortunately, I think our 
Federal tax credit for child care has increased only one time 
since the 1970s, and clearly it's not keeping pace with the 
cost of child care.
    As I think maybe you pointed out, Val, we also have too 
many students who, because of their student loans, can't afford 
to take the job that maybe they want to take because they can't 
pay off their student loans. That's a huge role for the Federal 
Government and a place where we can partner with states.
    Mr. Przybyszewski. I think one of the things just to add 
that we find in our analysis is that affordable housing is a 
big issue, particularly up north, but even in Portsmouth. If 
you live in Maine and drive across the bridge to go to work, we 
need to find a way to get more affordable housing for our 
people. And if you're a millennial and you don't have internet 
service, forget it, I'm not going to work here. They live on 
their phones.
    So we need to figure out, make sure broadband is all over 
the State, where it needs to be.
    Senator Shaheen. And then I know it's an issue in the North 
Country.
    Ms. Warren. Yes, very much so. And I've heard of other 
states as well who have, say for recent college grads, if they 
stay in the State, they would get some kind of loan 
reimbursement, tuition loan reimbursement or help with housing 
if they decided to stay in the State.
    Senator Shaheen. I think both of those are really creative 
ideas. The challenge has been resources, of course. So we need 
to think about how we can provide incentives for the kinds of 
things that you talked about, Emily, that don't necessarily 
cost money but help attract people to the jobs.
    I want to ask you, Phil, a little bit about broadband, 
because it is one of the things that I find the most 
frustrating in work that I've done in New Hampshire. I've been 
working on broadband since I was governor 20 years ago, and we 
still have the same pockets in so much of the State where you 
can't get high-speed internet. And what does that mean? I mean, 
maybe all of you can address what that means for your effort to 
attract workers for your employees as they're thinking about 
where they want to go.
    Mr. Przybyszewski. I think that for a younger person--I 
mean, I'm an old dude, but I still do a lot on my phone. But 
they do everything on their phone. They live and breathe on the 
phone. I've had people tell me, quote, ``I will not take a job 
in New Hampshire unless there's internet coverage where I'm 
going to work and live.'' It's just pervasive. I mean, we have 
to deal with that somehow. It's real, and it's an issue.
    Senator Shaheen. Any other comments on that?
    [No response.]
    The other thing I would say is--I know Lisa knows this, but 
for people in the North Country, there are areas of northern 
New Hampshire that not only don't have access to high-speed 
broadband, they don't have access to cell coverage. And it's 
something, again, that we've worked very hard on in my office 
but still remains a challenge. We need to think about what we 
can do primarily at the Federal level to provide some 
incentives for the private sector to get in and provide 
service. At some point we may need to think about what we did 
back in the 1930s with rural electrification where we have to 
step in and really pay for that last mile for broadband to get 
to some of our homes and communities in the State.
    Women in the workforce, you addressed that a little bit, 
Phil, in talking about that being a place where we could get 
some additional workers.
    Emily, you talked about what Badger has done to keep women 
in the workforce. How important is what you talked about in 
getting women to stay in the workforce after they have 
children?
    Ms. Warren. I think you can't really quantify how important 
it is. Women are over half of our workers, right? It should be 
this way. We're still oftentimes carrying a lot of the burden 
for caring for our children, at least in the early years. With 
our Babies at Work program, for example, we found women are 
excited to come back to work. They can bring their child back 
to work with them. It encourages children's health because of 
the opportunity to breastfeed. It encourages mom's health 
because they have a community who is surrounding them, 
recognizing that they have just had a momentous change in their 
family. And they're more engaged because they're not wondering, 
oh my goodness, what's happening to my little, fragile newborn 
while I'm not with them. So I think it makes a huge difference.
    Senator Shaheen. Val, one of the areas that it's often been 
challenging to get women to participate in is the STEM jobs, 
engineering and some of the non-traditional roles for women. 
Has that been an issue that you've seen, and have you tried to 
address that in any way?
    Mr. Zanchuk. Well, in our business we've had some women 
working on the floor, on the factory floor. That's been sort of 
an in-and-out type of situation for us, although we do have 
women working for us. They're all beyond child-bearing age and 
they have a pretty stable existence.
    In my work with the Pre-Engineering Council, we've had a 
lot of effort on Technology Days and Women in Engineering 
programs and whatever, and it is certainly getting better. But 
I think the last numbers I saw were something like 20 percent 
of engineering involvement is women. They make up half the 
population. Why isn't it 50 percent women? And we have a 
shortage of engineers in certain areas, and here's all this 
talent and potential not being utilized.
    But I think still, within a lot of these industries, 
there's a lot of bias against women being there. It may not be 
overt, but it's certainly in many cases very subtle and hidden, 
and it's very difficult for women to have a career in these 
areas. Besides their life pressures of having children and 
whatever, there are a lot of people who I think just don't want 
women in the workforce, and that's unfortunate. It's getting 
better, but it's a difficult process to get beyond, and I think 
there are a lot of things that happen to discourage girls from 
going into STEM fields right from the beginning. Even their 
teachers and their parents saying things to them and influence 
them to get away from that--no, you don't want to go there, you 
want to go here--so that's what they hear.
    Luckily, what we're finding with a lot of the pre-
engineering programs, because we're bringing them down to 
kindergarten now with State legislation, our support of pre-
engineering goes K through 12, there is an opportunity to 
introduce technology to these young girls early on where it 
becomes a natural part of their operation.
    Here in Nashua, in the middle schools, all three middle 
schools have the same pre-engineering program, and it's part of 
their curriculum. It's not a special project. It's not 
something they elect to be in. It's part of their curriculum. 
The girls go through it just like the boys do. It's a natural 
part of training. What's happened is their interest in pre-
engineering and STEM, it goes into the high school.
    Now the high school is getting overwhelmed with all of 
these students coming out of middle school wanting to get 
involved with pre-engineering and manufacturing. Phil and I 
have been over trying to get the manufacturing program 
reinstituted, but we know that the pre-engineering faculty is 
having to be increased to meet that demand.
    So the earlier we get them, the more natural it is to be 
inquisitive and mechanical and a tinkerer, then the women will 
not think it's a strange existence and they'll be there. We're 
getting there, we're getting there.
    Senator Shaheen. Tamer, what are you seeing among the 
students who come into Job Corps? Do people self-segregate?
    Mr. Koheil. We try not to do that, but most of them, they 
come for hospitality and culinary arts, medical. However, we 
currently have one student in facility maintenance, we had one 
in electrical, and we had one in advanced manufacturing. So Job 
Corps continues to promote women in non-traditional trades. 
That's what we're trying to do. But most of them come to Job 
Corps with their mind set on either medical or hospitality.
    Senator Shaheen. Phil, you talked about one of the areas 
where there is potential for workers in New Hampshire, among 
our immigrant population. I know that one of the real 
challenges we've had this summer with the hospitality industry, 
as the number of visas have been shrunk, has been getting in 
some of the workers that we need in the industry.
    I don't know if that's been an issue that you've seen, 
Lisa, but maybe you could speak to what that has meant as you 
struggle to find people for this season.
    Ms. Whitaker. It is. It has been difficult. We had a call 
with one of our agencies just yesterday and learned that it may 
be decreased even more with the next round. We, of course, are 
always recruiting for U.S. citizens to work for us, but we 
can't fill all of our jobs.
    For example, right now we have about 950 people employed. 
We have about 75 job openings right now, current openings. So 
it's always a chore. It's always difficult to fill those 
positions, so we do need to supplement, bringing in J-1 visas 
or H2Bs. We actually have H2Bs coming in this Friday.
    So it is essential to us to be able to provide the service 
and keep our business running to have these workers come in, 
and having those programs cut is making it very difficult.
    Senator Shaheen. Phil, do you want to comment?
    Mr. Przybyszewski. One of the things we've uncovered in our 
work--it started out in health care but ended up being more 
than that--is that there are roughly 3,000 immigrants and 
refugees in the Nashua, Manchester, and Concord strip, and we 
found a company that is applying for a grant, and we're 
supporting their application for that to unlock opportunities 
for them, and it really impacts all of our sectors because they 
have a lot of good skills, they're underemployed today. They 
might have a language issue that we can fix with English as a 
second language classes. They have normally fabulous work 
ethic, maybe even better than our own people do because they're 
hungry to succeed.
    So we're trying to tap into that, to get to that gene pool 
thing again, to enlarge that pool somehow. So we're seeking out 
agencies and organizations that work with--Easter Seals has a 
good program. Asyntria has a good program. That's the 
connecting-the-dots part. We're trying to figure out where they 
are, how can we help, and how we can connect them with the 
right folks and sectors.
    Senator Shaheen. Great.
    I know we're about out of time, but I want to address one 
final issue before we close, because it has been such a huge 
challenge in New Hampshire, and that is the heroin and opioid 
crisis that we have faced and how that has affected the 
workforce, because another concern that I've heard as I've 
traveled around the State has been it's been hard to get 
workers because we find so many people who have been using 
drugs or have taken opioids that have led to addiction and 
substance use disorders.
    Can I ask if that's anything that's come up among your 
workforce, or is it something that you've heard from people?
    And it leads us to the second half of that, which is how do 
we continue to address this crisis in a way that helps people 
with substance use disorders and gets them back into the 
workforce to become productive citizens?
    I don't know if anybody has addressed this.
    Mr. Zanchuk. Well, as a 26-person operation, we've had some 
issues with employees having abuse problems, but I think even 
if we get past this crisis, we're going to have a population 
that has some sort of history of abuse, and I think as 
employers we're going to have to come to grips with the fact 
that many of our employees are going to have some sort of 
history that maybe in the past we felt we could avoid, but 
we're going to have to learn how to deal with it.
    How do you deal with someone that's been an alcoholic or 
has been a substance abuser, someone that spent some time in 
county jail or something like that? I mean, these people had an 
issue. They have, many times, overcome it, but they're left 
with this trail. With the unemployment rate so low and all of 
us struggling for workers, I think we're going to have to 
understand how we're going to deal with this population that's 
coming through. We can't ignore them.
    I'm sure in the hospitality industry it's a common issue, 
and how do you deal with it is going to be a question. It's a 
change in philosophy and thought about how in the future, as 
employers, we're going to deal with this. We have to worry 
about safety on the floor and all these other sorts of things, 
but we also recognize that a lot of people are going to be good 
workers, they just have had an issue in the past that we have 
to somehow understand and be sensitive to and not just reject 
them.
    Ms. Warren. I would really echo what Val is saying. This is 
something that we're thinking a lot about at Badger and have 
been in the last two months or so, because whether it's someone 
in your community who has a substance abuse disorder or it's 
their family members or their friends or they're affected by 
it, we don't know anyone who isn't affected by this crisis 
right now.
    Thinking about businesses' role in society and role in our 
community, the place that we've come to is to say we need to be 
providing support for our employees and helping them through 
the flexibility that we offer in the workplace, but also 
through education. So we're working with two organizations in 
the State of New Hampshire. One is a new organization. It's 
called Be An Opportunity, or BAO Communications, education 
about how you can be a recovery coach to people, and we're 
going to be providing that training to all of our managers. And 
then also Hope for New Hampshire Recovery offers a workplace 
initiative program where I can provide a phone number to anyone 
in our company who comes to me and says this has been going on 
with my family, this has been going on with my friend, and they 
will do--I think they call it assertive linkage to a recovery 
center in the State.
    I agree, this is about not shutting down people's 
opportunities. It's about how do we manage and help people to 
keep those opportunities so that they can get well, versus 
being ostracized. We feel pretty passionately about that.
    Senator Shaheen. That's very well said from both of you.
    One of the things the Comprehensive Addiction and Recovery 
Act legislation did at the Federal level was to try to look at 
some of the forms that are typical that employees fill out when 
they're applying for a job, or that workers fill out when 
they're applying for a job, and think about where there are 
changes that need to be made to that so that it doesn't 
automatically disqualify you if you had a problem at some point 
in your life with substance use.
    So I do think, as you point out, this is very important for 
employers to think about because the happier the workforce is, 
the less concerned they are about their families, about their 
own personal situation, the more productive they're going to 
be, and the better the workplace is going to be. So it's 
something that is really important for all of us to be thinking 
about.
    As I said, we promised we would try and end by noon. I want 
to again thank all of you for testifying. You've given us a lot 
to think about and very thoughtful responses to the real 
challenges that we're facing, and ideas for how to address 
those and how to keep New Hampshire's economy robust and give 
people opportunities.
    My father always said to me that the best thing you can do 
for somebody is give them a good job, and I believe that 
wholeheartedly, and thinking about ways in which we can 
increase opportunities for people in New Hampshire is really 
important.
    So thank you all very much for what you're doing on a day-
to-day basis, and especially for being here.
    Let me just close out officially the hearing and let you 
know that the testimony today will be part of the official 
transcript of the Small Business and Entrepreneurship 
Committee. It will be shared in Washington. And as we think 
about legislation that we should be looking at to address some 
of these challenges, it will be very helpful as we think about 
that legislation.
    I also want to again point out that we have written 
testimony that can be submitted. In two weeks anybody can 
submit written testimony within a two-week period, and we will 
include that as part of the record of this hearing as well.
    Let me also just point out, since Phil brought his show-
and-tell reports, I wanted to point out that we have a resource 
guide that's available I think on the table outside, if you 
would like it, that is put out by the Small Business Committee, 
and it's helping New Hampshire small businesses. It's the 
resources that are available to small businesses in the State 
as you're looking at the challenges that you face.
    So again, thank you all very much for being here. Thank you 
to the panelists especially for the great ideas and for the 
work that you do.
    I would now like to officially close this hearing.
    [Applause.]
    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED
                      
                      
                      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
